      Department of Homeland Security




           Adherence to Acquisition Management
             Policies Will Help Reduce Risks to the
               Technology Integration Program




OIG-12-107 (Revised)                          September 2012

                        OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

                              Washington, DC 20528 / www.oig.dhs.gov



                                   September 11, 2012

MEMORANDUM FOR:              Chris Cummiskey
                             Deputy Under Secretary for Management

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Information Technology Audits

SUBJECT:                      Re-issuance of Audit Report OIG-12-107, Adherence to
                              Acquisition Management Policies Will Help Reduce Risks to
                              the Technology Integration Program


I am writing to inform you that the Department of Homeland Security (DHS) Office of
Inspector General (OIG) has recalled the subject report and is now re-issuing it to modify
the statement of compliance with generally accepted government auditing standards
(GAGAS). We took these actions because it recently came to our attention that a family
member of a senior OIG official was employed by an entity associated with this audit.

To ensure that this impairment to our independence in appearance did not affect our
findings and conclusions, we thoroughly re-reviewed our work on this audit, as well as
the results. Through this re-review, we verified that the impairment did not affect our
results; our evidence is sound and fully supports our findings and conclusions.
Therefore, we are re-issuing this report and re-posting it on our website. The report is
unchanged except for the statement of compliance with GAGAS found on page 13 of
Appendix A – Objectives, Scope, and Methodology.

We remain committed to assisting the Department in improving its effectiveness and
efficiency to better carry out its mission, and we appreciate your support of our work.
Please do not hesitate to call me at (202) 254-4100 if you have any questions or
concerns.


Attachment
                                        OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 4


              Technology Integration Program Progress ............................................................. 4

              DHS Needs To Adhere to OMB and DHS Acquisition Guidance in Implementing 

              TIP ........................................................................................................................... 6

              Recommendations ............................................................................................... 10 

              Management Comments and OIG Analysis ......................................................... 11 


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology............................................ 13 

              Appendix B:           Management Comments to the Draft Report ............................... 14 

              Appendix C:           Major Contributors to This Report ................................................ 16 

              Appendix D:           Report Distribution ........................................................................ 17 


   Abbreviations
              ARRA                   American Recovery and Reinvestment Act
              CPIC                   Capital Planning and Investment Control
              DHS                    Department of Homeland Security
              FY                     fiscal year
              GSA                    General Services Administration
              HMD                    Headquarters Management and Development
              HQ                     headquarters
              IT                     information technology
              OCAO                   Office of Chief Administrative Officer
              OCIO                   Office of Chief Information Officer
              OMB                    Office of Management and Budget
              TIP                    Technology Integration Program
              USCG                   United States Coast Guard




www.oig.dhs.gov                                                                                                                    OIG-12-107
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) is planning to consolidate its headquarters
   in the National Capital Region at the St. Elizabeths Campus in Washington, DC. We
   conducted an audit of the DHS program, known as the Technology Integration Program,
   to develop and implement an information technology infrastructure at its planned
   headquarters campus at St. Elizabeths. Our audit objectives were to assess the progress
   that DHS is making in implementing the Technology Integration Program and to identify
   areas where DHS needs to improve program management.

   DHS is making progress toward the implementation of an information technology
   infrastructure at the St. Elizabeths campus. Specifically, DHS is partnering with the
   General Services Administration by using its interagency information technology
   contracting vehicles. Further, the General Services Administration awarded a task order
   on behalf of DHS to acquire information technology resources for the Technology
   Integration Program.

   DHS can reduce project risk by adhering to DHS and Office of Management and Budget
   acquisition policies in implementing the Technology Integration Program. Specifically,
   DHS needs to designate the Technology Integration Program as a major acquisition
   program as required by DHS’ acquisition guidance. In addition, DHS needs to follow the
   reporting requirements outlined in the capital planning and investment control
   guidance and adhere to the DHS acquisition review process. Finally, DHS needs to
   prepare a risk management plan for the Technology Integration Program. Taking these
   steps will help reduce the risk that the Technology Integration Program will not meet its
   cost and performance goals.

   We recommend that the Chief Administrative Officer, in coordination with the Chief
   Information Officer (1) report the Technology Integration Program as a major
   acquisition and include it on the DHS Major Acquisition Oversight List, (2) prepare the
   required Office of Management and Budget Exhibit 300 and include Technology
   Integration Program cost and funding in the Department’s Exhibit 53 for applicable
   reporting periods, and (3) establish a risk management plan for the Technology
   Integration Program.




www.oig.dhs.gov                                1                                      OIG-12-107
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   In August 2005, DHS approved the information technology (IT) concept for DHS facilities
   at the St. Elizabeths headquarters (HQ) campus. This concept later became known as
   the Technology Integration Program (TIP). TIP focuses on developing and implementing
   an integrated IT infrastructure for the consolidated DHS HQ at St. Elizabeths. The TIP
   mission is to create a physically and logically diverse and redundant campus
   infrastructure that will support everything on and within the perimeter fence of the
   St. Elizabeths site.

   TIP consists of three phases of development to transition 14,000 DHS employees onto
   the St. Elizabeths campus. The United States Coast Guard (USCG) is scheduled to be the
   first component to move onto the campus. Table 1 shows the DHS personnel transition
   schedule by phase.

           Table 1. DHS St. Elizabeths Campus Personnel Transition Schedule
                                                                         Estimated
            Phase                    Component                          Completion
                                                                      Fiscal Year (FY)
              1A      USCG HQ                                              2013
              1B      USCG Command Center/Shared Use Spaces                2013
              2A      DHS HQ, Mission Support Components, and
                                                                           2017
                      DHS Operations Centers
              2B      Federal Emergency Management Agency and
                                                                           2018
                      DHS Amenity Spaces
                  3   Remaining DHS Components                             2021

   In 2009, DHS initiated the DHS Headquarters Consolidation Program to consolidate
   component operating locations by increasing cross-collaboration and lowering
   operational costs. The DHS Headquarters Consolidation Program will increase
   efficiency, enhance communications, and foster a “One DHS” culture that will optimize
   Department-wide prevention, response, and recovery capabilities. DHS partnered with
   the General Services Administration (GSA) to develop planning-level requirements for a
   single secure location for all of DHS and its component HQ functions throughout the
   National Capital Region. GSA determined that the St. Elizabeths site was the only
   location that could meet DHS requirements to house 14,000 employees on one campus.
   The St. Elizabeths site development will be the largest project in the National Capital
   Region since the construction of the Pentagon. The DHS Headquarters Consolidation
   Program is projected to cost approximately $3.9 billion.

   Under the DHS Headquarters Consolidation program, GSA, the Federal Government’s
   real estate agent, owns and is currently redeveloping the St. Elizabeths campus for DHS


www.oig.dhs.gov                               2                                      OIG-12-107
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   use. DHS created a program management office to assist GSA in the coordination and
   monitoring of the development of the St. Elizabeths campus. DHS’ Office of the Chief
   Administrative Officer (OCAO) Headquarters Management and Development (HMD)
   division was established to lead the Headquarters Consolidation Program and is
   responsible for program oversight to include program management, financial reporting,
   and TIP. OCAO/HMD is currently authorized 28 personnel, organized into five teams, to
   provide oversight of the DHS Headquarters Consolidation Program (see figure 1). OCAO
   personnel include architects; engineers; program managers; and communications,
   environment, finance, furniture, leases, rent, and security specialists.

           Figure 1. Headquarters Consolidation Program Organization Chart




   TIP funding was obtained from the Headquarters Consolidation Program, which received
   fiscal year (FY) appropriations and funds from the American Recovery and Reinvestment
   Act of 2009 (ARRA). Additionally, in FY 2009, the USCG received appropriations for
   Phase 1A at St. Elizabeths that were later transferred to GSA for tenant build-out, and IT
   and security infrastructure. For FYs 2009 to 2012, the Department and USCG received
   approximately $433 million in total funding for the entire Headquarters Consolidation
   Program, including the TIP infrastructure (see table 2).




www.oig.dhs.gov                                3                                      OIG-12-107
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


             Table 2. DHS HQ Consolidation Program Annual Funding (in Millions) 

           Funding       FY 2009      ARRA      FY 2010      FY 2011      FY 2012       Total
          Public Law     110-329      111-5      111-83       112-10       112-74
         USCG             $97.578          $0         $0            $0           $0    $97.578
         DHS                 $2.7       $200          $0         $77.4      $55.979   $336.079
         Total Funding   $100.278       $200          $0         $77.4      $55.979   $433.657


   Results of Audit
   DHS has taken steps to plan and design an IT infrastructure at the St. Elizabeths campus.
   Specifically, DHS has partnered with GSA by using its interagency IT contracting vehicles.
   Also, GSA awarded a task order on behalf of DHS to acquire IT resources for TIP. DHS
   can reduce project risk by adhering to Office of Management and Budget (OMB) and
   DHS acquisition policies and guidance in implementing TIP. Specifically, DHS needs to
   designate TIP as a major acquisition program as required by its acquisition guidance. In
   addition, DHS needs to follow the reporting requirements outlined in the Capital
   Planning and Investment Control (CPIC) guidance and adhere to the DHS acquisition
   review process. Finally, DHS needs to prepare a risk management plan for TIP. Taking
   these steps will help reduce the risk that TIP will not meet its cost and performance
   goals.

           Technology Integration Program Progress

           DHS has made some progress toward the implementation of TIP at the
           St. Elizabeths headquarters campus. It is partnering with GSA to acquire IT
           services through interagency contracting vehicles. Additionally, GSA awarded a
           task order on behalf of DHS for the IT infrastructure.

                  DHS Is Partnering With GSA

                  Under the DHS Headquarters Consolidation Program, GSA owns and is
                  redeveloping the St. Elizabeths campus on behalf of DHS. Although GSA
                  is responsible for the building, DHS is responsible for the IT cost, also
                  known as TIP. DHS and GSA entered into a partnering agreement to use
                  interagency contracting vehicles to acquire IT resources and services for
                  TIP. On September 20, 2010, DHS and GSA signed and formalized a
                  Memorandum of Understanding that defines the roles and responsibilities
                  of both agencies for project oversight, including reporting, oversight, and
                  tracking funds for the headquarters consolidation program. As noted in
                  the Memorandum of Understanding, GSA is the contracting agency



www.oig.dhs.gov                                 4                                      OIG-12-107
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  responsible for delivering the TIP solution to DHS. The Government-Wide
                  Acquisition Contracts administered by GSA on behalf of DHS for the TIP
                  efforts are listed in table 3.

                        Table 3. Contracts Administered by GSA for TIP
                         Contractor                            Responsibility
                  General Dynamics            To develop and deliver IT requirements for
                  TIP Contractor              engineering, implementation, and operation and
                                              maintenance of network systems that are
                                              reliable, certifiable, functional, available, and of
                                              optimal performance, in accordance with the
                                              TIP contract.
                  Advanced Management         To verify and validate the products, services,
                  Strategies Group, Inc.      and systems that will be installed during the
                  Independent Verification    construction and renovation of the
                  and Validation Contractor   St. Elizabeths campus IT infrastructure.
                  Perkins and Wills           To provide design documents to support the
                  IT Bridging Contractor      ongoing construction work in Phase 1 of the
                                              project.
                  CLIMS, LLC Project          To build a core support Project Management
                  Management Support          Office to assist the Information Technology
                  Contractor                  Services Office, within the Office of Chief
                                              Information Officer (OCIO), to initiate and
                                              establish a cohesive and integrated program
                                              coordination team to support the DHS HQ
                                              Consolidation, which includes St. Elizabeths TIP.


                  GSA Awarded the Task Order for TIP

                  GSA awarded the TIP task order to General Dynamics in June 2011, for an
                  estimated $877 million. The task order was awarded to provide a total
                  solution for a single contractor to design, procure, configure, install, test,
                  accept, and maintain a seamless integrated infrastructure in coordination
                  with the construction phase. The scope of the task order was to create a
                  physically and logically diverse and redundant campus infrastructure that
                  will support everything within the perimeter fence at St. Elizabeths.
                  Additionally, General Dynamics was tasked to provide an integrated
                  detailed design of how DHS IT can be linked into a common core
                  enterprise standard platform. The TIP contractor is currently in its design
                  phase of the program life cycle. General Dynamics is scheduled to
                  provide DHS with its designs by late April 2012. Once DHS accepts and
                  approves the contractor’s designs, the scope of the contractor’s work will
                  be established and the program development phase will commence.




www.oig.dhs.gov                                     5                                                OIG-12-107
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           DHS Needs To Adhere to OMB and DHS Acquisition Guidance in Implementing
           TIP

           DHS did not follow OMB and DHS acquisition policies and guidance when
           implementing TIP. Specifically, it did not designate TIP as a major acquisition as
           required by DHS acquisition guidance. Further, DHS did not prepare reporting
           requirements outlined in the CPIC procedures, and did not follow the DHS
           acquisition review process. Finally, DHS needs to prepare a risk management
           plan for TIP. Better adherence to these policies will reduce the risk that TIP will
           not meet its cost and performance objectives.

                  Major Acquisition Program

                  DHS did not establish TIP as a major acquisition program and as a result
                  did not include TIP on DHS’ Major Acquisition Oversight List. DHS reviews
                  its acquisition portfolio annually and develops a major acquisition
                  oversight list. This list identifies programs that have been established in
                  accordance with DHS Directive 102-01. All programs and projects that
                  meet certain investment threshold criteria based on life cycle costs are
                  included on this list. Because the life cycle costs of TIP are estimated to
                  be $640 million for all three phases, it should be classified as a Level 2
                  program (see table 4).

                  According to OCAO officials, TIP was not designated as a major acquisition
                  because they considered it to be a subset of the Headquarters
                  Consolidation Program, which was included on the Major Acquisition
                  Oversight List as a non-IT Level 2 Program in FY 2011. OCAO removed the
                  program from the list in December 2011, following a reduction in
                  congressional appropriations.




www.oig.dhs.gov                                  6                                       OIG-12-107
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                            Table 4. CPIC Applicability to Investment Thresholds

                     Investment Investment Investment Major or  Capital   Exhibit  Exhibit
                        Level    Threshold    Type   Nonmajor Investment   300       53
                                 Based on                        Plan    Required Required
                                 Life Cycle
                                     Cost
                          1      ; $1 billion   IT     Major       X        X         X
                                              Non-IT   Major       X        X
                          2      $1 billion >   IT     Major       X        X         X
                                $300 million  Non-IT   Major       X        X
                          3     $300 million    IT     Major       X        X         X
                                > $50 million
                                 $50 million    IT    Nonmajor     X                  X
                                > $1 million
                                   IT items     IT    Nonmajor    One                 X
                                    under
                                  $1 million
                                  annually

                    IT Capital Planning and Investment Control Procedures

                    DHS has not established IT capital planning and investment controls for
                    TIP. Specifically, DHS needs to implement a Capital Investment Plan and
                    an OMB Exhibit 300 Business Case, and add the TIP to the items listed on
                    the Department’s Investment portfolio, Exhibit 53. As required by
                    Management Directive 4200.1, DHS’ IT CPIC guidance, a capital
                    investment plan is used as a decision-making process for ensuring that IT
                    investments support the agency’s mission and business needs. The CPIC
                    process integrates strategic planning, architecture, security, budgeting,
                    procurement, and the management of IT. OCAO officials did not follow
                    these guidelines, nor did they prepare the appropriate exhibits for TIP.
                    According to OCAO officials, under the interagency acquisition1
                    relationship with GSA, they are a customer of GSA and as a result, not
                    required to complete this documentation.




   1
    “Interagency acquisition” means the use of the Federal Supply Schedules, a multiagency contract (i.e., a
   task order or delivery order contract established by one agency for use by Government agencies to obtain
   supplies and services, consistent with the Economy Act, 31 U.S.C. 1535), or a Government-wide
   acquisition contract (i.e., a task order or delivery order contract for IT established by one agency for
   Government-wide use operated by an executive agent designated by OMB pursuant to 40 U.S.C.
   11314(a)(2) (Clinger-Cohen Act of 1996).


www.oig.dhs.gov                                        7                                            OIG-12-107
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                    However, DHS is not correct in its assertion that GSA is responsible for TIP
                    acquisition reporting requirements, for a number of reasons:

                         •	 TIP is a DHS IT project funded from appropriations and from ARRA
                            of 2009 monies allocated to DHS;

                         •	 TIP is not a joint IT investment between GSA and DHS;

                         •	 According to the Memorandum of Understanding between DHS
                            and GSA for the TIP project, the cost of TIP is solely DHS’
                            responsibility; and

                         •	 DHS is responsible for preparing documentation regarding
                            planning, budgeting, acquisition, and management of its own
                            capital assets.

                    OMB guidelines consider interagency acquisitions as major acquisitions
                    and require that they be formally documented and reported. As part of
                    its capital investment planning for TIP, DHS needs to prepare the
                    required OMB Exhibit 3002 and include TIP cost and funding in the
                    Department’s Exhibit 53.3 Exhibit 300s must be submitted for all major
                    investments and multiagency collaborations in accordance with DHS and
                    OMB guidance, and should be prepared by the program manager. The
                    Exhibit 300 is needed and designed to coordinate OMB’s collection of
                    agency information for its reports to Congress required by the Clinger-
                    Cohen Act of 1996. The Exhibit 300 also ensures that the business case
                    for an investment is made and tied to the mission statements, long-term
                    goals and objectives, and annual performance plans developed pursuant
                    to the Government Performance and Results Act. Without these
                    documents, DHS cannot demonstrate TIP’s potential return on
                    investment. Further, it is increasing the risk that it may not meet its
                    stated performance goals.




   2
     Exhibit 300 business cases are required by OMB Circular A-11. Exhibit 300 provides budget justification 

   and reporting requirements for investments. 

   3
     Exhibit 53s are also referred to as agency IT investment portfolios. They are required by OMB Circular 

   A-11 and provide summary budget information for all agency major and nonmajor IT investments. 



www.oig.dhs.gov                                         8                                        	    OIG-12-107
                                  OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


                  Acquisition Review Board

                  The DHS Acquisition Review Board has not reviewed or approved any of
                  the milestones for the TIP. Specifically, during our review, General
                  Dynamics developed and presented three project milestones
                  deliverables, and program officials expected to receive the fourth in late
                  April 2012 (see figure 5). However, OCAO did not present any of the
                  deliverables to the DHS Acquisition Review Board for review. Instead,
                  OCAO HMD staff and subject matter experts from OCIO reviewed the
                  deliverables and provided their assessments to the contractor.

                                               Figure 5. DHS TIP Milestones Timelines
                                                                       DHS TIP Milestone Timeline


                                                                                              )
                            1)




                                                                 )


                                                                                2)



                                                                                               2
                                                              11
                                                  1)




                                                                                                                                                         )
                                                                                                                                      )
                                                                                                                      2)




                                                                                                                                                      13
                          /1




                                                                              1


                                                                                            /1



                                                                                                           )




                                                                                                                                      2
                                                  1




                                                                                                           2
                                                            3/



                                                                           9/




                                                                                                                     1


                                                                                                                                   /1
                                               4/




                                                                                          7


                                                                                                        /1




                                                                                                                                                    /
                        /5




                                                                                                                  7/




                                                                                                                                                 29
                                                                            2


                                                                                       /1
                                                             2




                                                                                                                                  1
                                              2




                                                                                                       9
                      (6




                                                                         2/
                                                          2/




                                                                                                                 /2



                                                                                                                               /3
                                           0/




                                                                                        4


                                                                                                    /2




                                                                                                                                                  /
                                                                                                                                               (3
                                                                      (0



                                                                                     (0
                      d




                                                       (1




                                                                                                               (7



                                                                                                                              (8
                                          (1




                                                                                                   (6
                    ar




                                                                                                                                           R
                                                                   R



                                                                                  R
                                                    R




                                                                                                                           R
                                                                                                              R
                                       R




                                                                                               R
                  Aw




                                                                                                                                          OR
                                                                 PD



                                                                                CD
                                                  SD




                                                                                                                         PR
                                                                                                           TR
                                     IB




                                                                                              IR




                                 Delivered                                                                 Undelivered

                                                                 IBR            Integrated Baseline Review
                                                                 SDR            System Definition Review
                                                                 PDR            Preliminary Design Review
                                                                 CDR            Critical Design Review
                                                                 IRR            Integrated Readiness Review
                                                                 TRR            Test Readiness Review
                                                                 PRR            Production Readiness Review
                                                                 ORR            Operational Readiness Review




                  Before a major acquisition is funded, it should be evaluated by the
                  Acquisition Review Board to determine the net benefits and risks of the
                  acquisition. The Acquisition Review Board is also responsible for
                  providing senior leadership with information on the progress of the
                  investment, which includes milestones for measuring the project’s
                  progress. Additionally, the board provides an independent process to
                  determine the capability of the project to meet specified requirements,
                  timeliness, and quality. Without following the acquisition review process,
                  DHS senior officials cannot exercise the governance needed to ensure
                  that TIP will meet its funding and implementation goals.

                  DHS Needs To Prepare a Risk Management Plan

                  DHS does not have a risk management plan for TIP. Per DHS Directive
                  # 102-01, Section V.A.2.iii.c., the Systems Engineering Life Cycle Guide
                  (Version 2.0, September 2010), and appendix B of Acquisition


www.oig.dhs.gov                                                                   9                                                                      OIG-12-107
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                  Instruction/Guidebook # 102-01-001, the risk management plan should
                  detail the process used to identify, document, track, mitigate, and report
                  project risk. This plan should establish an approach to monitoring,
                  evaluating, and managing risk throughout the life of the project.
                  Additionally, the risk management process will identify potential risk
                  sources; assess individual risks and impacts on performance, cost, and
                  schedule; evaluate alternative approaches to mitigate high and moderate
                  risks; and develop action plans to handle individual risks. By developing a
                  risk management plan, DHS can strengthen TIP program management by
                  predicting risk issues and taking steps to mitigate them.

           Conclusion

           TIP is a large and costly acquisition that is critical to the establishment of a
           robust IT infrastructure at the St. Elizabeths campus. Despite GSA’s involvement
           in the consolidated headquarters building project at St. Elizabeths and in
           awarding and administering the IT contracts for DHS, TIP is a DHS IT project and
           no GSA money is involved in TIP. Without the proper reporting processes, DHS
           has little guarantee that TIP is properly progressing, or that its strategic goals will
           be reached. Additionally, DHS may not know if it has properly planned,
           budgeted, or managed all appropriations and ARRA funds appropriately for TIP.
           Finally, DHS may not have a full understanding of any potential risks, and may
           not have had an opportunity to evaluate or mitigate them.

           Recommendations

           We recommend that the Chief Administrative Officer, in coordination with the
           Chief Information Officer:

           Recommendation #1:

           Report TIP as a major acquisition and include it on the DHS Major Acquisition
           Oversight List.

           Recommendation #2:

           Prepare the required OMB Exhibit 300 and include TIP cost and funding in the
           Department’s Exhibit 53 for applicable reporting periods.




www.oig.dhs.gov                                  10                                        OIG-12-107
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #3:

           Establish a risk management plan for TIP.


           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Deputy Under
           Secretary for Management for DHS. We have included a copy of the comments in
           their entirety in appendix B.

           Recommendation #1:

           The Department concurs with recommendation 1. When the DHS Headquarters
           Consolidation Program was initially established, the Department did not envision
           or identify TIP as a separate program. The Department, however, will begin to
           report TIP as a separate program and include it on the Major Acquisition
           Oversight list.

           We agree that the steps the Department has taken, and plans to take, begin to
           satisfy this recommendation. This recommendation will remain open until the
           Department provides documentation to support that all planned corrective
           actions are completed.

           Recommendation #2:

           The Department concurs with Recommendation 2. In accordance with the new
           direction to report TIP as a separate program, the Department will prepare an
           OMB Exhibit 300 and adjust the Department Exhibit 53 for TIP.

           We agree that the steps the Department has taken, and plans to take, begin to
           satisfy this recommendation. This recommendation will remain open until the
           Department provides documentation to support that all planned correction
           actions are completed.

           Recommendation #3:

           The Department concurs with Recommendation 3. The Department noted that
           an overall programmatic risk management plan has been in place for the overall
           DHS Headquarters Consolidation, which included TIP. However, the Department
           agrees that a separate risk management plan for TIP would be beneficial for


www.oig.dhs.gov                               11                                    OIG-12-107
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           managing TIP, since moving forward it will be reported as a separate major
           acquisition program. The TIP Manager will develop this plan and ensure that it
           seamlessly integrates with and complements the current DHS Headquarters risk
           management plan.

           We agree that the steps the Department has taken, and plans to take, begin to
           satisfy this recommendation. This recommendation will remain open until the
           Department provides documentation to support that all planned correction
           actions are completed.




www.oig.dhs.gov                              12                                     OIG-12-107
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of our review was to determine the effectiveness of DHS’s effort to
   develop and implement an IT infrastructure at the St. Elizabeths DHS HQ campus.
   Specifically, we determined (1) whether DHS program management was effective in
   planning and implementing TIP, (2) the current status of TIP, and (3) the budgetary
   impact of expected and unexpected project changes.

   We interviewed selected personnel at DHS HQ and components facilities in the
   Washington, DC, area. In addition, we reviewed and evaluated DHS acquisition policies
   and procedures, the HMD project implementation plan, and other appropriate
   documentation.

   We conducted this performance audit between September 2011 and April 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards, except that we identified an impairment to
   our independence in appearance. Following completion of our audit, it came to our
   attention that a family member of a senior OIG official was employed by an entity
   associated with this audit. In our opinion, the impairment to our independence in
   appearance did not affect the findings and conclusions developed during this audit.

   GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based upon our
   audit objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based upon our audit objectives, and that the impairment
   to our independence in appearance did not affect this evidence or any findings and
   conclusions.




www.oig.dhs.gov                               13                                     OIG-12-107
                                      OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                          U$. I>t-pa rtlJlf nl ol liOluela nd Sec:urill
                                                                          WL~binltlDn. J)e 20!'llI




                                                                          Homeland
                                                                          Security
                                          JUL I 2 20ll
     MEMORANDUM FOR:               Charl es K. Edwards
                                   Acting Inspector gener~ >.              I{
     FROM:                         Chris cummiS~ ~
                                   Deputy Under Secrl:lary   ror Management
     SUBJECT:                      "Ad herence to Acquisition Managemcnt Policies Will Help
                                   Reduce Risks 10 the Technology Integration Program"
                                   (P<oj ccl No. l l- 153-1TA-MG MT)

     Thank you for the opportunity to review and com ment on this draft report. We appreciate the
     Office of Inspector General 's (OIG's) work in planni ng and conducling ils review a nd issuing
     thi s report .

     We orc pleased to note the OIG's positive recognition that the Department is making progresf>
     toward implementing an infannati an technology infrastructure. better known as the Technology
     Integration Program (TIP). at the 5 1. Eli tabeth'scampus. As noted in the report, this effort
     includes partnering with the General Services Administration to use its interagency informatio n
     technology (IT) contracting vehicles when acquiring IT resources and services. which we
     consider a " best practice"' anJ an example for others to follow.

     The draft report contained thrce recommendations with which the Department concurs.
     Specifically, the OIG recomnlellded that the DHS Chief Administrative Officer, in conjunction
     with the DHS Chief Informatio n Officer:

     Recommendatiun Ill. RepOlt T IP as a major acqui sition and include it on the DHS Major
     Acquisition Oversight List.

     Response. Concur. When the DHS Headquarters Conso lidation Program was established, TIP
     was not envisioned nor identified as a separate program but was considered inteJ:,'Tal to and part
     of the overall larger consolidation program . Success of the DH S Headquarters Consolidation
     Program is stili dependent on the success of TIP. DJ-I S will, however, begin reporting TIP as a
     separate program and include it on the DHS Major Acquisition Oversight List. We request this
     recommendation be considered resolved and closed as o f the date o f th is memorandum.

     R«ommendation #2. Prepare the rcquircd OMB Exhibit 300 ond inc lude TIP cost and funding
     in the Department's Exhibit 53 fo r applicable report ing periods.

     Response. Concur. In accordance with the new direction to begin reporting TIP as a separate
     program, the TIP Manager will work with Otlice of the Chief Adm inistrative Officer staff as




www.oig.dhs.gov                                                     14                                                    OIG-12-107
                                      OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security



     well as the Office of the Chief Information Officer staff to prepare an OMB Exhibit 300 and
     modify the Department's Exhibit 53 , as appropriate. Estimated Completion Date (ECD):
     September 30, 2(112

     Recommendation #3. Establish a risk management p:an for TIP.

     Response. Concur. It is important to note. however. that an overall programmatic risk
     management plan has been in place and functioning for the DHS Headquarters Consolidation
     Program, which has included TIP. This is critical to t~.e success of the overall program. Now, in
     addition to that plan, we will create a specific, detailed TIP Risk Management Plan, which will
     support the over2.ll program. We agree that a separate risk management plan would be beneficial
     for managing TIP given that moving fonvard it will be reported sepamtely as a major acquisition
     program. The TIP Manager will develop this plan, ensuring that it seamlessly integrates with
     and complements the current risk management process ill place for the consolidation program.
     T hc TIP plan will outline IT areas of responsibility, indude stakeholder-identified risks and other
     concerns, and address governance and sustainment of :he risk management process, plan, and
     registcr, as appropriatc . ECD: September 30, 2012




                                                       2




www.oig.dhs.gov                                                    15                                       OIG-12-107
                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Sharon Huiswoud, IT Audit Director
   Sharell Matthews, IT Audit Manager
   Beverly Dale, Team Leader
   Anthony Nicholson, Senior IT Auditor
   Ernest Bender, Senior Program Analyst
   Robert Durst, Senior Program Analyst
   Frederick Shappee, Program Analyst
   Amanda Strickler, Referencer




www.oig.dhs.gov                            16                    OIG-12-107
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary of Management
   Chief Administrative Officer
   Chief Information Officer
   Acting Chief Privacy Officer
   Deputy Chief Information Officer
   CIO Audit Liaison
   CAO Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  17                        OIG-12-107
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
